USCA4 Appeal: 20-7733

Doc: 26

Filed: 08/17/2021

Pg: 1 of 1

FILED: August 17, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7733
(5:20-cv-01351 -RMG)

SHAHEEN CABBAGESTALK, a/k/a James Cabbagestalk
Plaintiff - Appellant
v.
LIEUTENANT WILLIAM BERLEY; WARDEN NELSON; ASSOCIATE
WARDEN TISDALE; MS. BLACK; MS. JACKSON; LIEUTENANT COLBERT;
LIEUTENANT DAMON GREEN; ASSOCIATE WARDEN RAMOS; WARDEN
STEPHAN
Defendants - Appellees
and
ASSOCIATE WARDEN RAMAL
Defendant

ORDER
The court dismisses this proceeding for failure to prosecute pursuant to Local
Rule 45.
For the Court—By Direction
1st Patricia S. Connor. Clerk

5:20-cv-01351-RMG

Date Filed 10/06/20

Entry Number 107

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Shaheen Cabbagestalk, #295567, a/k/a James >
Cabbagestalk
Plaintiff,
v.
Lt. William Berley; Warden Nelson;
Associate Warden Tisdale; Ms. Black;
Ms. Jackson; Lt. Colbert; Lt. Damon Green;
Associate Warden Ramos; and Warden Stephan,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

C/A. No. 5:20-1351-RMG

ORDER

On September 10, 2020, the Magistrate Judge issued a Report and Recommendation (“R
& R”) recommending that Defendants’ motion to dismiss be granted and that various motions by
Plaintiff be denied. (Dkt. No. 88). On September 28, 2020, the Court adopted the R & R in full,
granted Defendants’ motion to dismiss, and denied Plaintiffs’ pending motions. (Dkt. No. 99).
On September 28, 2020, the Court issued a judgment in favor of Defendants, (Dkt. No. 100), and
closed this case. On October 2, 2020, however, Plaintiff filed a motion to change venue. (Dkt.
No. 104). And on October 5, 2020, Plaintiff filed a motion to simply amend, (Dkt. No. 105), and
amotion for judicial recusal, (Dkt. No. 106).
Because this case has been closed since September 28, 2020, the Court DENIES
Plaintiffs’ newly filed motions as moot. (Dkt. Nos. 104, 105, 106).
AND IT IS SO ORDERED.
s/ Richard Mark Gergel
United States District Court Judge

1

5:20-cv-01351-RMG

Date Filed 10/06/20

October 6, 2020
Charleston, South Carolina

2

Entry Number 107

Page 2 of 2

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Shaheen Cabbagestalk, #295567, a/k/a James
Cabbagestalk

)
)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.

Lt. William Berley; Warden Nelson;
Associate Warden Tisdale; Ms. Black;
Ms. Jackson; Lt. Colbert; Lt. Damon Green;
Associate Warden Ramos; and Warden Stephan,
Defendants.

C/A. No. 5:20-1351-RMG

ORDER AND OPINION

Before the Court is the Report and Recommendation (“R & R”) of the Magistrate Judge
(Dkt. No. 88) recommending the Court (1) grant Defendants’ motion to dismiss (Dkt. No. 68)
and (2) deny various motions filed by Plaintiff.1 Before the Court is also Plaintiffs motion for a
permanent restraining order. (Dkt. No. 94). For the reasons set forth below, the Court adopts the
R & R in its entirety, grants Defendants’ motion to dismiss (Dkt. No. 68), denies Plaintiffs
various motions (Dkt. Nos. 18, 20, 21, 31, 37, 39, 52, 57, 58, 61, 66, 67, 80, 82) and denies
Plaintiffs motion for a permanent restraining order (Dkt. No. 94).

I.

Background

The R & R recommends dismissing the following motions filed by Plaintiff: Emergency Motion
for Temporary Restraining Order, (Dkt. No. 18); Motion to Enforce Restraining Order, (Dkt. No.
20); Motion for Removal out of SCDC Custody, (Dkt. No. 21); Motion for Temporary Restraining
Order, (Dkt. No. 31); Motion for Relief, (Dkt. No. 37); Emergency Motion for Relief, (Dkt. No. 39);
Motion to Intervene and Order Relief of Me from SCDC, (Dkt. No. 67); Motion for Jurisdictional
Proof, (Dkt. No. 82); various Motions to Amend, (Dkt. Nos. 52,57,58, and 66); Motion to Produce,
(Dkt. No. 61), and Motion to Quash Subpoena, (Dkt. No. 80).
1

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 2 of 7

Plaintiff, an inmate with the South Carolina Department of Corrections (“SCDC”), filed
this 42 U.S.C. § 1983 action alleging that Defendants violated his constitutional rights.
Defendants moved to dismiss Plaintiffs complaint on August 28, 2020. (Dkt. No. 68). In their
motion, Defendants represent that Plaintiff failed to obtain leave of this court before filing a
claim for monetary relief as required by Cabbagestalk v. Sterling, et al., No. 5:17-2703-RMG,
2018 WL 339940 (D.S.C. Jan. 9, 2018) (issuing prefiling injunction against Plaintiff). Plaintiff
filed a Response to the Motion to Dismiss on September 3, 2020. (Dkt. No. 83).
On September 10, 2020 the Magistrate Judge filed an R & R recommending Defendants’
Motion to Dismiss be granted and that this case be dismissed. Relatedly, the Magistrate Judge
recommend denying as moot Plaintiffs various Motions to Amend, (Dkt. Nos. 52, 57, 58, 66),
and Plaintiffs Motion to Produce, (Dkt. No. 61), Motion to Quash Subpoena, (Dkt. No. 80), and
Motion for Jurisdictional Proof, (Dkt. No. 82). Finally, the Magistrate Judge recommended
denying Plaintiffs Motions for Injunctive Relief, (Dkt. Nos. 18, 20, 21, 31, 37, 39, 67). On
September 23, 2020 Plaintiff filed timely objections to the R & R. (Dkt. 96).
II.

Legal Standard
a. Report and Recommendation
The Magistrate Judge makes only a recommendation to this Court that has no

presumptive weight. The responsibility to make a final determination remains with the Court.
See Mathews v. v\feber, 423 U.S. 261, 270-71 (1976). The Court may “accept, reject, or modify,
in whole or in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636 (b)(1). This Court must make a de novo determination of those portions of the R & R
Plaintiff specifically objects to. Fed. R. Civ. P. 72 (b)(2). Where a plaintiff fails to file any
specific objections, “a district court need not conduct a de novo review, but instead must only
2

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 3 of 7

satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.” Diamond v. Colonial Life & Accident Ins. Co., 416 F.3d 310, 315 (4th Cir.
2005). (internal quotation omitted). “Moreover, in the absence of specific objections to the R &
R, the Court need not give any explanation for adopting the recommendation.” VMIson v. SC.
Dept of Corr., No. 9:14-cv-4365-RMG, 2015 WL 1124701, at *1 (D.S.C. Mar. 12, 2015).
Plaintiff filed objections to the R & R, and the R & R is reviewed de novo.
b. Motion to Dismiss Pursuant to Rule 12(b)(6)
Rule 12(b)(6) of the Federal Rules of Civil Procedure permits the dismissal of an action
if the complaint fails “to state a claim upon which relief can be granted.” A motion to dismiss
tests the legal sufficiency of the complaint and “does not resolve contests surrounding the facts,
the merits of the claim, or the applicability of defenses. . . . Our inquiry then is limited to
whether the allegations constitute a short and plain statement of the claim showing that the
pleader is entitled to relief.” Republican Party of N.C. v. Martin, 980 F.2d 943, 952 (4th Cir.
1992) (internal quotation marks and citation omitted). On a Rule 12(b)(6) motion, the Court is
obligated to “assume the truth of all facts alleged in the complaint and the existence of any fact
that can be proved, consistent with the complaint’s allegations.” E. Shore Mkts., Inc. v. J.D.
Assocs. Ltd. P’ship, 213 F.3d 175, 180 (4th Cir. 2000). Although the Court must accept the facts
in a light most favorable to the plaintiff, the Court “need not accept as true unwarranted
inferences, unreasonable conclusions, or arguments.” Id. Generally, to survive a motion to
dismiss the complaint must provide enough facts to “‘state a claim to relief that is plausible on
its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)); 9ee also Fed. R. Civ. Pro. 8(a)(2).

Although the requirement of

plausibility does not impose a probability requirement at this stage, the complaint must show
3

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 4 of 7

more than a “sheer possibility that a defendant has acted unlawfully.” Iqbal, 556 U.S. at 678. A
complaint has “facial plausibility” where the pleading “allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Id
III.

Discussion
After review of the record, the R & R, and Plaintiffs objections, the Court finds the

Magistrate Judge accurately set forth the facts and legal principles in this case and adopts the R
& R in its entirety.
As the Magistrate Judge correctly stated, in Cabbagestalk v. Serling, et al., No. 5:172703-RMG, 2018 WL 339940 (D.S.C. Jan. 9, 2018), this Court issued a prefiling injunction
against Plaintiff. In Cabbagestalk v. Sterling, Plaintiff filed a motion for reconsideration of a
prior order denying a request for a temporary restraining order and dismissing Plaintiffs
complaint with prejudice. Plaintiffs complaint had alleged “that prison guards [were] harassing
him and conspiring with inmates to kill.” The court noted, however, that “Plaintiff is an extreme
serial litigant who has filed at least 23 other actions in this Court, 8 actions in the Richland
County Court of Common Pleas, and 7 mandamus actions in the Fourth Circuit. Plaintiffs
ability to file in forma pauperis was revoked years ago under the three-strike provision of 28
U.S.C. § 1915(g) for frivolous filings. That has not prevented Plaintiff from continuing to file
frivolous lawsuits. Plaintiff often invokes the ‘imminent danger of serious physical injury’
exception to the three-strike rule.” Id.,at *1. Finding no reason to reconsider the court’s previous
ruling dismissing plaintiffs complaint, and having warned Plaintiff that the court was
“considering the imposition of a prefiling injunction against Plaintiff,” the court issued a
prefiling injunction:

4

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 5 of 7

1. The court ENJOINS Plaintiff from filing any new action or proceeding in any
federal court, other than a petition for habeas relief, without first obtaining leave
of that court; and
2. The court ENJOINS Plaintiff from filing any further papers in any case, either
pending or terminated, in the District of South Carolina, without first obtaining
leave of court.
These injunctions apply only to pro se filings and do not apply to any action filed
by counsel on Plaintiffs behalf. Leave of court for pro se filings shall be
forthcoming upon Plaintiffs demonstrating through a properly filed motion that
the proposed filing: (1) can survive a challenge under Rule 12 of the Federal
Rules of Civil Procedure; (2) is not barred by principles of issue or claim
preclusion; (3) is not repetitive or violative of a court order; and (4) is in
compliance with Rule 11 of the Federal Rules of Civil Procedure.
Id. at *1-2 (noting that Plaintiffs “forty frivolous lawsuits over the last eleven years is a clear
abuse of process that the Court can no longer tolerate”).
In the instant matter, in light of Cabbagestalk v. Sterling, et al., No. 5:17-2703-RMG,
2018 WL 339940 (D.S.C. Jan. 9, 2018), the Magistrate Judge concluded that, “Based on the
pleadings, Defendants’ Motion to Dismiss, and Plaintiffs response to the dispositive motion, it
is clear . . . that Plaintiff has not complied with the conditions laid out in the above Order
imposing a prefiling injunction.” The Court agrees with the Magistrate Judge’s findings that
Plaintiff has not complied with this Court’s January 9, 2018 Order, and therefore adopts the R &
R and grants Defendant’s motion to dismiss (Dkt. No. 68).2 Plaintiff filed objections to the R &
R, which the Court addresses below.

2 Relatedly, the Court also agrees with the Magistrate Judge that Plaintiffs motions to amend,
(Dkt. Nos. 52, 57, 58, 66), should be denied as moot as none as “none of them, even if
supplementing his prior pleadings, comply with the conditions laid out in the above Order
imposing a prefiling injunction.” (Dkt. No. 88 at 4). The Court also agrees that because Plaintiff
has failed to demonstrate pre-filing pleading requirements, Plaintiffs Motion to Produce, (Dkt.
No. 61), Motion to Quash Subpoena, (Dkt. No. 80), and Motion for Jurisdictional Proof, (Dkt.
No. No. 80), should be denied as moot.
5

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 6 of 7

The Court overrules Plaintiffs objections. (Dkt. No. 96). Plaintiff argues, inter alia, that
he is not barred from presenting claims related to “imminent danger or [the] coronavirus health
situation” or “human trafficking.” (Id. at 1). Plaintiffs objections, however, do not substantively
contest this Court’s authority to enforce its previously issued injunction nor contest the fact that
Plaintiff has not complied with the same in the instant matter.
As it relates to the Plaintiffs various motions for a preliminary injunction, (Dkt. Nos. 18,
20, 21, 31, 37, 39, and 67), the Magistrate Judge noted that “Plaintiff seeks the court’s
intervention with certain prison-related issues, security and classification issues, and seeks
release from SCDC due to the Corona Virus pandemic ” (Dkt. No. 88 at 3). The Magistrate
Judge correctly concluded, however, that Plaintiff does not meet the burden for injunctive relief
as articulated in Writer V. Natural Res. Def. Council, 555 U.S. 7, 20 (2008) (“A plaintiff seeking
a preliminary injunction must establish that he is likely to succeed on the merits, that he is likely
to suffer irreparable harm in the absence of preliminary relief, that the balance of equities tips in
his favor, and that an injunction is in the public interest.”). See MicroStrategy Inc. v. Motorola;
Inc., 245 F.3d 335, 339 (4th Cir. 2001) (“[Preliminary injunctions are extraordinary remedies
involving the exercise of very far-reaching power to be granted only sparingly and in limited
circumstances.”). Plaintiffs pending motions for injunctive relief are thus denied.
IV.

Conclusion
For the foregoing reasons, the Court ADOPTS the R & R (Dkt. No. 88) as the order of

the Court, GRANTS Defendant’s motion to dismiss (Dkt. No. 68), DENIES AS MOOT
Plaintiffs motions to amend (Dkt. Nos. 52, 57, 58, 66), DENIES AS MOOT Plaintiffs Motion
to Produce, (Dkt. No. 61), Motion to Quash Subpoena, (Dkt. No. 80), and Motion for

6

5:20-cv-01351-RMG

Date Filed 09/28/20

Entry Number 99

Page 7 of 7

Jurisdictional Proof, (Dkt. No. No. 82), and DENIES Plaintiffs motions, for injunctive relief
(Dkt. Nos. 18, 20, 21, 31, 37, 39, 67, 94).
AND IT IS SO ORDERED.
s/ Richard Mark Gersel
United States District Court Judge

September 28, 2020
Charleston, South Carolina

7

Additional material
i

from this filing is

i

available in the
Clerk's Office.

i

i

i

